^ er

/f,

V\".

r"6§3

HM!:
iU--,

G

'■ir'-

No.

FILED

MAR 2 h im
■ office of the clerk
IN THE
SUPREME COURT OF THE UNITED STATES

Keenan

Wilkins

— PETITIONER

(Your Name)
vs.

C. Joksch, et al.
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

U.S. Court of Appeals For the Ninth

Circuit

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Keenan

Wilkins

(Your Name)

California Health Care Facility
P.0. Box 213040
(Address)

Stockton, CA 95213
(City, State, Zip Code)

N/A
(Phone Number)

QUESTION(S) PRESENTED

1.

Is a.prisoner who is found to have THREE STRIKES pursuant to 28 UCS 1915
entitled to a ONE TIME appeal on the merits of this finding?

NOTICE 4
Petitioner respectfully additionally presents TWO questions/arguments that
were CONCEDED by Respondants in prior proceeding No.19-6705 by their FAILURE
to argue against them when ordered to do so by this court( See Medelin v.
Dretke (2005) 544 US 660; Clem v Lomeli, 566 F3d 1177 9th Cir. 2009; Tapia
v. Wells
2.

2015 UD Dist Lexis 102836).

Does the Court of Appeal have jurisdiction to DECIDE an appeal BEFORE
grahting/denying an indigent Appellants Rule 24 request for In Forma
Pauperis status?
(Confer: Buck v Davis (2017) 137 S. Ct. 759 establishing that the Court
of Appeal does hot have jurisdiction to proceed with the appeal until
it has settled the' question of granting/denying a COA).

3.

Were Petitioner's appeal for the District Court's dismissal of his
ENTIRE complaint for Misjoinder a FRIVILOUS appeal?
(Confer: Neitke v Williams (1989) 490 US 319).

NOTICE 2
After this Court ordered a response on these claims ( Question 2 and 3 ) and
Respondant conceded the claims by failure to argueAagainst------ Petitioner's
Pro Bono retained counsels focused ONLY on the 1 claim Respondants addressed.
Petitioner sought to address in pro per afterwards but was rejected as
being untimely for Reconsideration( ,See Appendix C).

Z

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[X] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
1. C. Joksch
2. F. Folk

3 -o

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
Copy of 9th Circuit Order on appeal--reversing imminent danger
denial and failing to address at all the 3 strike finding claim
APPENDIX B
Copy of the 9th Cir order denying Re-hearing
APPENDIX C
Copy of the Motion for rehearing/reconsideration to US Supreme Court
denied as untimely in Case No. 19-6705.
APPENDIX D
Copy of a jurist order deeming Petitioner NOT TO HAVE 3 Section 1915
strikes.
APPENDIX E
APPENDIX F

JJ

O

I'Z-

TABLE OF AUTHORITIES CITED

CASES
1.

Buck

v Davis

PAGE NUMBER
(2017) 137 S ct. 759

2

2. Clem V lomeli, 566 F.3d 1177 9th Cir. 2009

2

3. Medelin v Dretke (2005) 544 US 660

2, 10, 11

4. Neitke v Willaiams (1989) 490 US 319

2

5. Richey t* Dahne, 807 F3d 1202 9th Cir 2015

11

6. Tapia v Wells 2015 US Dist Lexis 102836

2

STATUTES AND RULES
1. 28 USC 1915

8

2. F.R.C.P. 60

9

3. F.R.C.P. 21

8

4. F.R.A.P. 24

8

US Constitution 14 th Amendment

8

OTHER

r~

£ IZ-

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ^ is unpublished.
The opinion of the United States district court appears at Appendix ^/A
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------=_ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
! or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

(o of 17-

to

JURISDICTION

For cases from federal courts:
The date omwhich the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
and a copy of the
order denying rehearing appears at Appendix _J*
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_____
(date) on
(date)
in Application No. __
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

7of rz

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. Constitutional Due Process under the !4th Amendment
2. Constitutional Equal Protection uner the 14th Amendment.
3. 28 USC 1915
4. Fed. R. App. P. ( Rule 24)
5. Fed. R. Civ. P. ( Rule 21)

D

n

STATEMENT OF THE CASE
Petitioner, a LIFE TERM inmate is ERRONEOUSLY being deemed to have 3 Section
1915 strikes.
Two of the 3 Strikes arose from Appellant attempting to appeal *
a. The district court improperly asserting misjoinder contrary to statue
and established authorities*
t

b. The district courts dismissal of Petitioner'S' ENTIRE complaint for
misjoinder .in conflict with statue and established case law.
PETITONER HAS NEVER BEEN ALLOWED TO APPEAL THE ASSERTED ERRONEOUS ACTION
OF THE DISTRICT COURT IN 2012.

The Ninth Circuit had a practice in 2012

that when an indigent inmate made a request for IFP status on appeal, the
Ninth Circuit would decide the appeal without i.jurisdiction v (before/without
granting IFP status).

A MERITORIOUS appeal would be called FRIVILOUS and

the indigent Appellant would not be allowed to appeal unless they paid the
enormous filing fee.
In 2016 a

District Court determined thst this practiced and Petitioner's

attempt to vacate the erronous judgment pursuant to Rule 60) were strikes-.
Petitioner attempted to appeal this finding but the appeal was erroneously
denied as MOOT after his family paid the filing fee to proceed in the
district court.
PETITIONER HAS NEVER BEEN ALLOWED TO APPEAL THE 3 STRIKE FINDING.

Peti­

tioner attempted to raise the claim in this action on appeal with the
imminent danger issue-'---- but the Ninth Circuit did not address the issue(See Appendix A).
Petitioner is seeking a 9NE TIME appeal of the 3 Strike finding

1

12.

REASONS FOR GRANTING THE PETITION

Appellant respectfully asserts that a GROSS miscarriage of justice and
infringement upon constitutional right to Due Process/Equal Protection has
occurred.
In light of the courts holding and reasoning displayed in Buck, it would
appear that the same principles would apply in a civil action------ pointed­
ly, that The 9th Circuit is deciding appeals without the jusrisdiction to
do so.

All that is before the 9th circuit at the IFP stage is whether to

grant IFP status for the appeal.

The Ninth Cir is circumventing the

appeal process andddeciding NON-BRIEFED appeals BEFORE it has jurisdic­
tion to do so.

This practice also places a huge roadblock before ind­

igent inmates---- as the 9th'..'Cir is calling otherwise MERITORIOUS appeals
(such as Petitioner's) frivilous (when they are not) and only allowing a
Petitioner to proceed if they can afford to PAY hundreds of dollars to be
heard.

It is important for this court to see the fact that THE CLAIMS THE

NINTH CIRCUIT IS ASSERTING AS FRIVILOUS WAS NOT SO ( Neitke, Supra).
This error/mistake is the primary reason that Petitioner is asking this
court to intervene on this claim that the State has conceded (Medelin,
Supra)
Additionally,

this matter could have been addressed with a simple fix-----

allowing Petitioner a ONE TIME APPEAL so he can present the errors properly to the Court of Appeal.

The Ninth Cir has placed this FOREVER

RESTRICTION OF IFP status on Petitioner without giving him the due process
to be heard and challenge the finding.

10

a

If it has not already done so

■£ iz

REASON EOR GRANTING THE PETITION

Petitioner: is respectfully seeking for the Supreme Court to firmly
establish that a litigant found to have three strikes under Section 1915
is entitled to a ONE TIME appeal of that finding ( Note: The Ninth Circuit
has established this rule

but has not applied the rule to Petitioner-See

Richey v Dahne, 807 F3d 1202 9th Cir 2015).
In Case No. 19-6705, Petitioner raised the unconstitutional practice of the
Ninth Circuit to decide appeals without jurisdiction to do so and the fact
the 9th Cir was improperly assertin appeals as frivilous in conflict with
US Supreme Court authority.

Respondant failed to address these claims in

their response ordered by this Court and as such CONCEDED THE CLAIMS (See
Medelin, Supra).

Pro Bono counsel for Petitioner failed to address the

claims and concession (despite repeated requests to do so) and focused on
the only claim Respondant addressed.

In addition to the one new clsim

presented herein ( ability to have a ONE TIME appeal of Section 1915 three
strike finding), Petitioner respectfully requests that the Court again
order response on these meritorious claims or decide them out right as the
Respondant has previously conceded them.
A prisoner only has THREE strikes before they forever lose the right to
proceed IFP to redress the denial of constitutional rights and other wrongs •
As the penalty for having three strikes is very serious and life time

it

is important that due process be given to address what very well may be
errors in the finding.

Here, Petitioner was not only found to have three

strikes in error, but he was then prevented for seeking relief.

II

o

/Z.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

' I'S
Date:

CU\

. ) |c s

>5/23/2 l

I

0~F

i 2-

